Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




GEORGIA DID NOT PAY SOME LINE
 ITEMS ON MEDICAID CLAIMS IN
ACCORDANCE WITH ITS MEDICAID
  NATIONAL CORRECT CODING
  INITIATIVE METHODOLOGIES


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      December 2013
                                                      A-04-12-06159
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Georgia did not pay some line items in accordance with its Medicaid National Correct
 Coding Initiative methodologies on claims that hospitals submitted. As a result,
 Georgia made erroneous payments to providers totaling approximately $1 million
 (Federal share).

WHY WE DID THIS REVIEW

Since 1996, the National Correct Coding Initiative (NCCI) methodologies have saved Medicare
millions of dollars in expenditures. Federal law mandates that States incorporate compatible
NCCI methodologies into their Medicaid program systems for claims filed on or after October 1,
2010. Georgia Department of Community Health (State agency) implemented the Medicaid-
compatible NCCI payment methodologies (Medicaid NCCI) for claims filed on or after
November 1, 2010, and did not report any incompatibilities between Georgia’s Medicaid
program and the Medicaid NCCI. We performed preliminary data matches that indicated that
the Medicaid NCCI may not have been properly implemented.

The objective of our audit was to determine whether the State agency paid line items in
accordance with its Medicaid NCCI methodologies on claims that hospitals submitted from
November 1, 2010, through September 30, 2011.

BACKGROUND

In January 1996, the Centers for Medicare & Medicaid Services (CMS) implemented the NCCI,
a program that consists of coding policies and automatic computer edits. The NCCI’s purpose is
to promote correct Healthcare Common Procedure Coding System (HCPCS) coding of health
care services provided to Medicare beneficiaries and to prevent Medicare payment for
improperly coded services. The NCCI edits identify HCPCS codes for services that, under
Medicare coding and payment policy, ordinarily should not be billed for the same patient on the
same day (HCPCS code pairs).

On September 1, 2010, CMS notified States that the Medicare NCCI methodologies were
compatible with Medicaid. CMS therefore required the States to incorporate the NCCI edit
methodologies into their Medicaid claims processing systems and to begin editing claims filed
on or after October 1, 2010.

In Georgia, the State agency administers the Medicaid program. The State agency implemented
the Medicaid NCCI in the Georgia Medicaid Management Information System (GAMMIS), a
computerized payment and information reporting system, effective November 1, 2010. (CMS
had given an extension to the October 1st deadline.) The State agency contracted with its fiscal
agent to implement the Medicaid NCCI.




Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                                i
WHAT WE FOUND

The State agency did not pay some line items in accordance with its Medicaid NCCI
methodologies on claims hospitals submitted from November 1, 2010, through September 30,
2011. Overall, the State agency satisfied Federal and State requirements by implementing the
Medicaid NCCI into GAMMIS on schedule. However, the Medicaid NCCI edits did not prevent
erroneous payments. The State agency made erroneous payments to providers totaling
$1,490,956 ($1,040,352 Federal share).

The erroneous payments occurred because the fiscal agent did not ensure that Medicaid NCCI
edits incorporated in GAMMIS approved only comprehensive HCPCS codes when they were
reported with component codes (already included in the comprehensive code) for the same date
of service. The State agency acknowledged that the Medicaid NCCI edits did not work as
intended and that it paid line items in error. Subsequent to our fieldwork, agency officials stated
that all of the erroneous payments identified in our universe have been recovered from providers.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund erroneous payments totaling $1,040,352 to the Federal Government and

    •   ensure that the Medicaid NCCI edits were properly incorporated and are functioning as
        intended in the GAMMIS.

STATE AGENCY COMMENTS

In comments on our draft report, the State agency concurred with our recommendations and
described the corrective actions it had taken.




Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                               ii
                                                     TABLE OF CONTENTS


INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................1

           Background ..........................................................................................................................1
                 Medicaid Program ....................................................................................................1
                 National Correct Coding Initiative...........................................................................2
                 Medicaid National Correct Coding Initiative Methodologies .................................2
                 Georgia’s Implementation of Medicaid National Correct Coding Initiative
                   Methodologies.......................................................................................................3

           How We Conducted This Review........................................................................................3

FINDINGS .......................................................................................................................................4

           The State Agency Paid Some Line Items That Were Not in Accordance With
            Medicaid National Correct Coding Initiative Methodologies ..........................................4

           Calculation of Unallowable Federal Reimbursement for the Erroneous Payments ............5

RECOMMENDATIONS .................................................................................................................6

STATE AGENCY COMMENTS ....................................................................................................6

APPENDIXES

           A: Audit Scope and Methodology ......................................................................................7

           B: Line Item Detail—Comprehensive and Component Codes .........................................10

           C: Federal and State Requirements ...................................................................................11

           D: Calculation of Unallowable Federal Reimbursement ..................................................12

           E: State Agency Comments ..............................................................................................13




Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                                                                              iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

Since 1996, the National Correct Coding Initiative (NCCI) methodologies, which include
policies for coding Medicare services and automatic computer edits to review those coded
services, have saved Medicare millions of dollars in expenditures. Federal law mandates that
States incorporate compatible NCCI methodologies into their Medicaid program systems for
claims filed on or after October 1, 2010. 1 The Georgia Department of Community Health (State
agency) implemented the Medicaid-compatible NCCI payment methodologies (Medicaid NCCI)
for claims filed on or after November 1, 2010, and did not report any incompatibilities between
Georgia’s Medicaid program and Medicaid NCCI. Before initiating this review, we performed
preliminary data matches, which indicated that Medicaid NCCI may not have been properly
implemented.

OBJECTIVE

Our objective was to determine whether the State agency paid line items in accordance with its
Medicaid NCCI methodologies on claims that hospitals submitted from November 1, 2010,
through September 30, 2011.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

Providers of Medicaid services submit claims to States to receive compensation. The States
process and pay the claims. The Federal Government pays its share of a State’s medical
assistance costs (Federal share) under Medicaid on the basis of the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income as
calculated by a defined formula (42 CFR § 433.10).




1
  Because of the technical and financial challenges of updating State Medicaid Management Information Systems
(MMISs), CMS provided flexibility in the implementation deadline and continued to work with States beyond the
statutory date. (See page 14 of the U.S. Department of Health and Human Services, Report to Congress on
Implementation of the NCCI in the Medicaid Program as Required by Section 6507 of the Affordable Care Act
(March 1, 2011).)



Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                                             1
National Correct Coding Initiative

In January 1996, CMS implemented the NCCI, a program that consists of coding policies and
automatic computer edits. The NCCI’s purpose is to promote correct Healthcare Common
Procedure Coding System (HCPCS) 2 coding of health care services provided to Medicare
beneficiaries and to prevent Medicare payment for improperly coded services. The NCCI
contains automated edits that identify claim submissions in which a provider bills more than one
service for the same beneficiary for the same date of service. The NCCI edits then identify
HCPCS code pairs for services that, under Medicare coding and payment policy, ordinarily
should not be billed for the same patient on the same day. 3

CMS was required to determine which Medicare NCCI methodologies were compatible with
Medicaid and to notify States of the methodologies to be incorporated into their MMIS. States
had to apply those Medicaid-compatible methodologies for claims filed on or after October 1,
2010 (section1903(r)(1)(B)(iv), as amended). On September 1, 2010, CMS issued a State
Medicaid Director letter (#10-017) notifying States of five Medicaid NCCI methodologies and
providing files 4 and instructions on how to incorporate them into their MMISs.

Medicaid National Correct Coding Initiative Methodologies

The Medicaid NCCI methodologies have four components: (1) a set of edits, (2) a set of
definitions of types of claims subject to the edits, (3) a set of claim-adjudication rules for
applying the edits, and (4) a set of rules for addressing provider and supplier appeals of payments
denied because of the edits.

One type of Medicaid NCCI edit is called a “comprehensive and component” edit. 5 This type of
edit identifies HCPCS code pairs that should not be billed together because one code (the
component code) identifies a service inherently included in the other (the comprehensive code).
If a provider bills for a comprehensive service together with a component service for the same
beneficiary and on the same date of service, the State should ordinarily pay only the service with


2
    Providers report procedures and services performed on Medicare beneficiaries using HCPCS codes.
3
  The NCCI is based on coding conventions defined in the American Medical Association’s Current Procedural
Terminology Manual, national and local Medicare policies and edits, coding guidelines developed by national
societies, standard medical and surgical practice, and current coding practice. NCCI edit tables are derived from
these reference sources. The NCCI contains two types of prepayment edits tables: Column 1/Column 2 Correct
Coding Edits tables (edits tables) and the Mutually Exclusive Edits table. We only applied the Column 1/Column 2
edits tables during this audit. (We refer to these as comprehensive and component edits.) The Column 1/Column 2
edits tables contain the following six columns: (1) the payable code, (2) the code that is not payable when reported
with the column 1 code, (3) the edit existence date, (4) the edit effective date, (5) the edit deletion date, and (6)
whether the use of a modifier is permitted. NCCI edit tables are updated quarterly.
4
 The Medicaid NCCI files contain the different edits tables that State Medicaid programs must incorporate into their
MMIS.
5
    This type of edit is also referred to as “procedure-to-procedure” and “column 1/column 2.”



Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                                                 2
the comprehensive code. 6 Only under certain circumstances, a provider may include a modifier
line item to indicate that payment of both services in a comprehensive and component HCPCS
code pair is allowable.

Georgia’s Implementation of Medicaid National Correct Coding Initiative Methodologies

In Georgia, the State agency administers the Medicaid program. The State agency implemented
the Medicaid NCCI in the Georgia Medicaid Management Information System (GAMMIS), a
computerized payment and information reporting system, effective November 1, 2010. The
State agency contracted with its fiscal agent to implement the Medicaid NCCI. The State agency
notified providers through its GAMMIS Web portal that it had incorporated Medicaid NCCI
edits in GAMMIS and that those edits would be applied to claims. 7

HOW WE CONDUCTED THIS REVIEW

From CMS’s Medicaid Statistical Information System (MSIS), we obtained approximately
5 million line items 8 that the State agency paid to hospitals from October 1, 2010, through
September 30, 2011, totaling approximately $355 million for outpatient services. We did not
review line items that did not contain a HCPCS code; had a length of service of greater than
1 day; or did not match to any other line item submitted for payment by the same provider for the
same beneficiary on the same date of service (i.e., line items with no code pair). Instead, to
determine the line items to review, we created a code pair data file by identifying (1) HCPCS
codes paid on each line item and (2) other HCPCS codes that were submitted on a previous, the
same, or a later claim that contained the same (a) date of service, (b) provider, and
(c) beneficiary as the original line item.

In addition, after comparing the code pairs with the Medicaid NCCI edit tables, we removed line
items that (1) matched to an edit that had an effective date outside of the HCPCS code service
date or before the implementation date of November 1, 2010, and (2) contained an allowable
modifier. From the remaining 25,085 line items, totaling $1,490,956 ($1,040,352 Federal share),
we selected a random sample of 30 line items to validate our match and that the State agency
paid for the services of both line items in the HCPCS code pair.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

6
  Although the column 2 code is often a component of a more comprehensive column 1 code, this relationship is not
true for many edits. In those cases, the code pair represents two codes that should not be reported together unless an
appropriate modifier is used.
7
  Hospitals must code outpatient services on claims submitted to the State agency using HCPCS codes. When a
single code is available for reporting multiple tests or procedures, that code must be used rather than reporting the
tests or procedures individually (Georgia Department of Community Health, Division of Medicaid, Policy and
Procedures for Hospital Services, Part II, ch. 900, § 902.3 (January 1, 2013)).
8
    A line item represented an individual service billed as part of a claim for a Medicaid beneficiary.



Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                                                     3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, and Appendix B contains
the results of our review of all 30 line items in our sample.

                                               FINDINGS

The State agency did not pay some line items in accordance with its Medicaid NCCI
methodologies on claims Georgia hospitals submitted from November 1, 2010, through
September 30, 2011. Overall, the State agency satisfied Federal and State requirements by
implementing the Medicaid NCCI edits into GAMMIS on schedule. However, the Medicaid
NCCI edits did not prevent erroneous payments. The State agency made erroneous payments to
providers totaling $1,490,956 ($1,040,352 Federal share).

The erroneous payments occurred because the fiscal agent did not ensure that Medicaid NCCI
edits incorporated in GAMMIS approved only comprehensive HCPCS codes when they were
reported with component codes for the same date of service. The State agency acknowledged
that the Medicaid NCCI edits did not work as intended and that it paid line items in error.

THE STATE AGENCY PAID SOME LINE ITEMS THAT WERE NOT IN
ACCORDANCE WITH MEDICAID NATIONAL CORRECT CODING INITIATIVE
METHODOLOGIES

Federal law required that States incorporate Medicaid-compatible methodologies of the Medicare
NCCI edits into the MMIS by October 1, 2010. Georgia implemented the Medicaid NCCI edits
into its MMIS and began editing claims against the Medicaid NCCI edits tables effective for
claims filed on or after November 1, 2010. (CMS had given an extension to the October 1st
deadline.) (See Appendix C for Federal and State requirements.)

The State agency incorrectly paid some line items that were not in accordance with Medicaid
NCCI methodologies. Although the State agency satisfied Federal and State requirements by
implementing the Medicaid NCCI edits into its MMIS on schedule, the comprehensive and
component edits contained in the implemented Medicaid NCCI did not prevent erroneous
payments. We identified a population of 25,085 component code line items that were reported
on the same claim as a comprehensive code and so may have been erroneously paid. We
selected a random sample of 30 line items to validate our data match and determined that all of
the 30 line items included erroneous payments to providers. The table shows examples of
comprehensive and component codes reported on the same claim for the same beneficiary and
date of service.




Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                               4
       Table: Examples of Comprehensive and Component Codes Reported Together

                                                                  Same
                                                                 Provider,
                                                                Beneficiary,
         Comprehensive Code          Component Code             and Date of
           and Description            and Description            Service?        Date of Service
                 33213                      93005
           Insertion of Pulse        Electrocardiogram                            November 12,
               Generator                   Tracing                    Yes            2010
                                            96374
                  51702                 Therapeutic,
               Insertion of           Prophylactic, or
           Temporary Bladder             Diagnostic
                 Catheter                 Injection                   Yes        March 22, 2011
                  96413                     99213
             Chemotherapy            Office Outpatient
          Intravenous Infusion               Visit                    Yes         May 17, 2011

The erroneous payments occurred because the fiscal agent did not ensure that Medicaid NCCI
edits incorporated in GAMMIS approved only comprehensive HCPCS codes when they were
reported with component codes for the same date of service. State agency officials
acknowledged that the Medicaid NCCI edits did not work as intended and that the State agency
paid the resulting line items in error. Subsequent to fieldwork, agency officials have stated that
all of the erroneous payments identified in our universe have been recovered from providers.

CALCULATION OF UNALLOWABLE FEDERAL REIMBURSEMENT FOR THE
ERRONEOUS PAYMENTS

On the basis of our data analysis, the 100-percent error rate of our sample, and Federal
requirements to implement the Medicaid NCCI on Medicaid claims, we concluded that the State
agency made erroneous payments to providers for 25,085 line items, totaling $1,490,956
($1,040,352 Federal share). Using the applicable FMAP, 9 we calculated the FMAP amount that
the State agency associated with the Medicaid paid amount for the component HCPCS code for
each of the 25,085 line items. (See Appendix D for our calculation of this overpayment.)




9
  The FMAP is used to determine the amount of Federal share for specified State expenditures for assistance
payments under the Act. The FMAP rates were temporarily increased from October 1, 2008, through December 31,
2010 (section 5001 of the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5). The FMAP
increases were extended until June 30, 2011.



Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                                        5
                                       RECOMMENDATIONS

We recommend that the State agency:

    •   refund erroneous payments totaling $1,040,352 to the Federal Government and

    •   ensure that the Medicaid NCCI edits were properly incorporated and are functioning as
        intended in the GAMMIS.

                                  STATE AGENCY COMMENTS

In comments on our draft report, the State agency concurred with our recommendations and
described the corrective actions it had taken. The State agency’s comments are included in their
entirety as Appendix E.




Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                                6
                        APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered 25,085 line items 10 with payments totaling $1,490,956 ($1,040,352 Federal
share) for services performed from November 1, 2010, through September 30, 2011. We limited
our review to determining whether Medicaid NCCI edits should have applied to the selected line
items. We did not review the overall internal control structure of the State agency or the
Medicaid program. Rather, we reviewed only those internal controls related to our objective.
We did not question the medical necessity of any of the services provided or their eligibility for
Medicaid reimbursement.

We conducted our audit from August 2012 to November 2012 and performed our fieldwork at
the State agency’s office in Atlanta, Georgia.

METHODOLOGY

To accomplish our objective, we performed the following steps:

       •   We reviewed Federal and State laws, regulations, and guidance and the State plan.

       •   We held discussions with State agency officials to understand their policies and controls
           for Medicaid NCCI methodologies.

       •   We conducted survey work at a hospital in Georgia and at the State agency to understand
           how the Medicaid NCCI was implemented at hospitals within the State.

       •   We identified a sampling frame of 25,085 line items with payments totaling $1,490,956
           ($1,040,352 Federal share) by performing the following steps:

                o We downloaded a database from CMS’s MSIS that contained 4,847,974 line
                  items with payments totaling $354,905,555.

                o We removed the following 1,861,579 line items with payments totaling
                  $147,902,598 from the MSIS data:

                             1,201,299 line items that did not include a HCPCS code;

                             648,118 single line item claims that did not match to any other line item
                              by provider, beneficiary, and date of service; and

                             12,162 line items for claims with a length of service of greater than 1 day.

10
     A line item represented an individual service billed as part of a claim for a Medicaid beneficiary.



Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                                        7
             o Using computer programming, we created a “coding pair data file” 11 that
               compared the remaining 2,986,395 line items with other line items for the same
               (a) date of service, (b) provider, and (c) beneficiary. This data match identified
               9,359,585 code pairs.

             o We matched the 9,359,585 code pairs in our coding pair data file to the Medicaid
               NCCI edit tables that were effective from October 1, 2010, through September 30,
               2011 (active NCCI code pairs). This data match identified 68,235 pairs of line
               items in our coding pair data file that matched NCCI code pairs.

             o For each pair of line items that matched the Medicaid NCCI, we created one
               sampling unit consisting of the line item HCPCS code that is not payable (the
               component code of the code pairs) 12 and the dollars associated with it.

             o From the 68,235 line items, we removed (1) 6,498 line items that matched to a
               Medicaid NCCI edit that had an effective date after the HCPCS service date or
               before the Medicaid NCCI methodologies’ implementation date of November 1,
               2010, 13 and (2) 36,652 line items matched to a Medicaid NCCI edit with a
               modifier indicator of “1.”

     •   To validate that the remaining 25,085 line items totaling $1,490,956 were erroneously
         paid, we:

             o used simple random sampling to select a sample of 30 line items from the
               sampling frame of 25,085 line items,

             o used the State agency’s MMIS to determine whether Medicaid paid for both
               HCPCS codes of the code pair for each of the 30 sampled items,

             o determined whether the sampled items had been adjusted, and

             o determined whether the State agency had applied the Medicaid NCCI edits to the
               30 sampled items.



11
   The coding pair data file contains two columns (comprehensive and component), and each row in that file
contains two HCPCS codes (code pairs). The number of code pairs identified exceeded the number of remaining
line items because the code pair data file contained all possible combinations of HCPCS codes that providers
submitted for the same beneficiary on the same date of service.
12
   The HCPCS code identified as not payable was in the component column of the edits tables. For example, a
hospital should not report an insertion of a pulse generator code (comprehensive column) and an electrocardiogram
tracing code (component column) together. In this case, the component code is included in the comprehensive code
and should not be paid.
13
  We did not review line items with a service date before the Medicaid NCCI implementation date of November 1,
2010.


Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                                              8
     •   To determine the Federal share of the 25,085 erroneously paid line items, we:

             o obtained from the State agency the eligibility records for the sampling frame line
               items,

             o identified the Medicaid Codes of Eligibility14 from the eligibility records,

             o obtained the quarterly FMAP rates for the Medicaid Codes of Eligibility for
               Federal FY 2011,

             o matched the FMAP rates to the sampling frame line item using the line item’s
               adjudicated payment date, and

             o quantified the Federal overpayment by multiplying the nonpayable (component)
               HCPCS code paid amount by the applicable FMAP rate.

     •   We discussed the results of our review with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




14
 The Medicaid Codes of Eligibility for Federal FY 2011 identifies the reason the beneficiary is eligible for
Medicaid. The applicable FMAP is determined on the basis of a beneficiary’s reason for Medicaid entitlement.


Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                                            9
                 APPENDIX B: LINE ITEM DETAIL—COMPREHENSIVE
                             AND COMPONENT CODES

                                                     Same Provider,
          Comprehensive          Component             Beneficiary,    Date of Service
             Code                  Code                and Date of
                                                        Service?
                10060                96375                 Y            February 3, 2011
                97598                29581                 Y             March 14, 2011
                31500                36600                 Y            January 25, 2011
                31720                93005                 Y              April 11, 2011
                33213                93005                 Y          November 12, 2010
                36600                96372                 Y           November 2, 2010
                44970                93005                 Y               June 20, 2011
                51702                96374                 Y             March 22, 2011
                52353                96360                 Y                June 8, 2011
                52353                96374                 Y             March 21, 2011
                76819                59025                 Y                June 8, 2011
                74160                96374                 Y           November 4, 2010
                74160                96374                 Y          November 19, 2010
                93975                76700                 Y                April 8, 2011
                92980                93005                 Y          December 22, 2010
                92980                93555                 Y          November 10, 2010
                94010                94375                 Y              March 7, 2011
                94060                94640                 Y           February 14, 2011
                94640                94664                 Y           November 2, 2010
                94640                94664                 Y           February 26, 2011
                94640                94664                 Y              March 1, 2011
                94760                94762                 Y          December 31, 2010
                96365                96360                 Y              April 18, 2011
                96360                96374                 Y          November 27, 2010
                96360                99218                 Y             March 31, 2011
                96365                96374                 Y              April 17, 2011
                96374                96372                 Y           November 9, 2010
                96413                99213                 Y               May 17, 2011
                96413                99213                 Y           December 6, 2010
                99218                99285                 Y            January 14, 2011




Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                         10
                  APPENDIX C: FEDERAL AND STATE REQUIREMENTS

FEDERAL REQUIREMENTS

Pursuant to section 1903(r)(4) of the Act, on September 1, 2010, CMS issued State Medicaid
Director Letter 10-017, National Correct Coding Initiative, which:

    •   identified and notified States of NCCI methodologies that are “compatible” with
        Medicaid claims filed to promote correct coding and to control improper coding leading
        to inappropriate payment of claims under Medicaid,

    •   notified States of the NCCI methodologies (or any successor initiative to promote correct
        coding and to control improper coding leading to inappropriate payment) that should be
        incorporated for claims filed with Medicaid for which no national correct coding
        initiative methodology has been established for Medicare, and

    •   informed States how they must incorporate these methodologies for claims filed under
        Medicaid.

Section 1903(r)(1)(B)(iv) of the Act requires that States incorporate compatible methodologies
of the NCCI administered by the Secretary of Health and Human Services and such other
methodologies as the Secretary identifies effective for Medicaid claims filed on or after
October 1, 2010.

Pursuant to 42 CFR § 433.10, the Federal Government reimburses the State for its share (Federal
share) of State medical assistance expenditures according to a defined formula. However, the
States are responsible for recovering from providers any amount paid in excess of allowable
Medicaid amounts and for refunding the Federal share to CMS (42 CFR § 433.312).

STATE REQUIREMENTS

Although Georgia does not have a State regulation regarding the implementation of the Medicaid
NCCI, it did implement the Medicaid NCCI by notifying providers through its GAMMIS Web
portal that it had incorporated Medicaid NCCI edits and would apply those edits to claims filed
on or after November 1, 2010.




Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                              11
APPENDIX D: CALCULATION OF UNALLOWABLE FEDERAL REIMBURSEMENT


                                   Total Medicaid          Federal Medical       Unallowable Federal
          Period                      Payment            Assistance Percentage     Reimbursement
       Nov 1, 2010–
       Dec 31, 2010                    $109,893                  75.16                 $82,595
       Nov 1, 2010–
       Dec 31, 2010                        1,693                 75.73                   1,282
       Nov 1, 2010–
       Dec 31, 2010                           932               100.00                     932
       Jan 1, 2011–
       Mar 31, 2011                     393,341                  72.33                 284,504
       Jan 1, 2011–
       Mar 31, 2011                        5,070                 75.73                   3,840
       Jan 1, 2011–
       Mar 31, 2011                        1,726                100.00                   1,726
       Apr 1, 2011–
       Jun 30, 2011                     493,614                  70.45                 347,751
       Apr 1, 2011–
       Jun 30, 2011                        3,067                 75.73                   2,323
       Apr 1, 2011–
       Jun 30, 2011                           237               100.00                     237
       Jul 1, 2011–
       Sep 30, 2011                     476,102                  65.33                 311,037
       Jul 1, 2011–
       Sep 30, 2011                        4,707                 75.73                   3,565
       Jul 1, 2011–
                                              143                90.00                     129
       Sep 30, 2011
       Jul 1, 2011–
       Sep 30, 2011                           431               100.00                     431
            Total                   $1,490,956                                      $1,040,352 15




15
     We estimated the total sum to the nearest dollar.


Georgia Medicaid National Correct Coding Initiative (A-04-12-06159)                                 12
                             APPENDIX E: STATE AGENCY COMMENTS



         ~           GEORGIA DEPARTMENT
         ~P' OF COMMUNITY HEALTH



           Nathan Deal, Governor                                                       Clyde L. Reese Ill, Esq., Commissioner

                         2 Peachtree street, NW         Atlanta, GA 30303-3159         404-656-4507 1 www.dch.georgia.gov


                                                          October 24, 2013



             Ms. Lori S. Pilcher
             Regional Inspector General for Audit Services
             Department of Health and Human Services
             Office of Inspector General
             Office of Audit Services, Region IV
             61 Forsyth Street, Suite 3T41
             Atlanta, Georgia 30303

             REPORT NUMBER: A-04-12-06159

             Dear Ms. Pilcher:

             This letter is in response to the draft 'revised' report received on September 30, 2013,
             from the Region IV Office of Inspector General (OIG) office labeled as 'Georgia Did Not
             Pay Some Line Items on Medicaid Claims in Accordance With Its Medicaid National
             Correct Coding Initiative Methodologies ' We are responding to the OIG/HHS revised
             audit report regarding identified overpayments found in the sampling of outpatient
             hospital claims related to column one and column tvvo Procedure to Procedure (PTP)
             co-pairs. We appreciate the re-review and notification by the OIG/HHS Region IV office
             of GA Medica id's original audit findings and CMS ' discussion with the OIG/HHS auditors
             of the PTP audit methodology

             The following responses again summarize our concurrence or non-concurrence to the
             same tvvo re commendations that OIG recomme nded previously to Georgia Medicaid for
             comment:

             OIG Recommendation: Refund erroneous payments totaling $1,040 ,352.00 to the
             Federal Government.

             Georgia's Response: Georgia Medicaid concurs with the above 'revised ' OIG
             recommendation of payment for the above federal share. Georgia Medica id
             ackn owledges that the Medicaid NCCI edits in the GAM MIS erroneously paid the line
             items in the PTP co -pairs in OIG's sa mple of outpatient hospital claims. OIG/HHS
             auditors revised the overstated payment amount as previously provided from the state's
             claims data.


            Health Information Technology 1 Healthcare Facility Regulation 1 Medical Assistance Plan s 1 State Health Benefit Plan

                                                         Equal Opportunity Employer




Georgia M edicaid National Correct Coding Initiative (A-04-12-06159)                                                                 13
            0             GEORGIA DEPARTMENT
                          OF COMMUNITY HEALTH




             OIG Recommendation: Ensure that the Medicaid NCCI edits were properly
             incorporated and are functioning as intended in the GAMMIS.

             Georgia's Response: Georgia Medicaid concurs with this OIG recommendation. On
             27 September 2012, the PTP files for all outpatient hospital providers, professional and
             ambulatory seNice center providers were fully implemented by the state's fiscal agent in
             accordance to the NCCI edits per CMS' directive. Therefore, since the 2012 OIG audit,
             the GAM MIS is fully incorporated with the quarterly PTP files and with the NCCI claims'
             edits functioning properly.

             Thank you for providing a revised draft report of Georgia Medicaid 's overpayment for
             the federal share and its audit findings for the PTP co-pairs and NCCI edits. If you
             should have any further questions or need further clarification, please contact either Ms.
             Heather Bond , Deputy Chief, Policy and Provider SeNices at (404) 657-1502 or viae­
             mail at hbond@dch.ga .gov or Ms. Argartha Russell, Director, Medical Policy, at (404)
             657-9093 or via her e-mail at arussell@dch.ga.gov.

             Sincerely,




             Jerry Dubberly, PharmD, MBA
             Chief, Medical Assistance Plans

             cc: 	   Heather Bond, Deputy Chief
                     Argartha Russell , Director, Medical Policy
                     Robert Finlayson, Ill, Inspector General
                     John Hankins, Audit Director, Office of Inspector General




Georgia M edicaid National Correct Coding Initiative (A-04-12-06159)                                      14
